NO.

_____________

IN THE
SUPREME COURT OF THE UNITED STATES
TERRY REED,
Petitioner,
vs.
UNITED STATES OF AMERICA,
Respondent.
MOTION FOR LEAVE
TO PROCEED IN FORMA PAUPERIS
COMES NOW Petitioner, Terry Reed, by and through his counsel of record, Doris RandleHolt, Federal Public Defender for the Western District of Tennessee, by Robert L. Thomas,
Assistant Federal Defender, pursuant to Supreme Court Rule 39.1 and 18 U.S.C. ยง 3006 A(d)(7),
and requests leave to file the attached Petition for Writ of Certiorari to the United States Court of
Appeals for the Sixth Circuit without prepayment of costs and to proceed in forma pauperis. The
Federal Public Defender was appointed to represent the petitioner in the district court.
Dated this 23rd day of July 2021.
Respectfully submitted,
/s Robert L. Thomas
Doris A. Randle-Holt
Federal Public Defender for the
Western District of Tennessee
By: Robert L. Thomas
Assistant Federal Public Defender
Attorneys for Petitioner
200 Jefferson, Suite 200
Memphis, Tennessee 38103
(901) 544-3895

